No.

IN THE
SUPREME COURT OF THE UNITED STATES

OLIN GASKINS,
Petitioner,

VS.
STATE OF WEST VIRGINIA,
Respondent

PROOF OF SERVICE
I, Olin Gaskins, do swear or declare that on this date
>1
2020, as
required by the Supreme Court Rule 29,1 have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or the party’s counsel, and on every other person required to be
served, by depositing and envelope containing the above documents in the United States mail
properly addressed to each of them and with first class postage prepaid, or by delivery to a thirdparty commercial carrier for the delivery within 3 calendar days.
The names and addresses of those served are as follows:
Patrick Morrisey, Attorney General
Shannon Frederick, Asst. Attorney General
812 Quarrier St., 6th Floor
Charleston, WV 25301
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

2020.
Olin Gaskins

